TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                 Inspection of the Internal Revenue Service’s
                    Pandemic Influenza Preparedness Plan



                                        INTERIM REPORT

                                        January 4, 2010

                           Reference Number: 2010-IE-R001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.
                          Revenue Service without the permission of the TIGTA.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            January 4, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Interim Inspection Report – Inspection of the Internal Revenue
                             Service’s Pandemic Influenza Preparedness Plan
                             (Inspection # IE-09-010)

 This report presents the interim results of our inspection to determine if the Internal Revenue
 Service (IRS) has met the various requirements directed to Federal agencies in preparing for a
 potential outbreak of a pandemic influenza like the H1N1 virus. Our final report on this subject
 will be issued in the second quarter of Fiscal Year 2010 and will include updated results.
 On October 1, 2009, the Secretary of Health and Human Services declared, “… that a public
 health emergency exists nationwide involving Swine Influenza A (now called 2009–H1N1 flu)
 that affects or has significant potential to affect national security.” If the IRS is not adequately
 prepared for an outbreak of pandemic influenza, or if it does not fully carry out its related
 implementation plan, employees, contractors, and visitors to IRS facilities will not be protected
 from infection; and the continuity of critical tax administration operations could be negatively
 affected.

 Interim Results
 In 2006, the Homeland Security Council requested that department and agency heads
 certify that their department or agency was addressing the applicable elements of
 pandemic planning set forth in a checklist it developed. Since 2006, preparedness efforts
 have matured and in August 2008, the checklist was updated to reflect current Federal
 Government guidance.
 The Department of the Treasury is using the Homeland Security Council checklist to
 assess pandemic preparations by each of the Treasury Bureaus. The Treasury Inspector
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




General for Tax Administration chose to use the same criteria and will share the results of
this inspection with the Department of the Treasury’s Director, Emergency Programs.
The IRS had addressed the majority of the pandemic checklist issued by the Homeland Security
Council. This includes prioritizing essential operations in the event of a pandemic outbreak,
communicating information to the employees, and taking steps to protect the health and safety of
IRS employees. However, the IRS did not specifically address items in the checklist related to
employees with disabilities, any changes needed with regard to procurements or contractors,
teleworking as a response to a potential pandemic, and adequate tests and exercises for pandemic
scenarios.

Recommendation
The IRS Chief, Agency-Wide Shared Services (with overall responsibility for Flu planning)
should take immediate steps to finalize the items “in process” and address the items in the
Homeland Security Council checklist not yet completed.

Response
IRS management agreed with the recommendations. The Director, Physical Security and
Emergency Preparedness, Agency-Wide Shared Services has taken action to complete the
Homeland Security Council checklist items that were in progress and not yet completed. The
actions taken are reflected in detail in Management’s complete response to the draft report,
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 927-7048 if you have questions or Kevin Riley,
Director, Inspections and Evaluations at (972) 249-8355.

Attachment




                                                                                               2
                     Inspection of the Internal Revenue Service’s Pandemic Influenza
                                             Preparedness Plan




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Has Addressed Most, but Not All of the
          Applicable Elements in the Homeland Security Council Guidance
          Checklist .......................................................................................................Page 3
                    Recommendation 1: .........................................................Page 7

          Other Implications of a Potential Pandemic Need to be Reviewed
          at Field Offices..............................................................................................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Checklist Items Determined to be “Not Applicable”...........Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 15
       Inspection of the Internal Revenue Service’s Pandemic Influenza
                               Preparedness Plan




                       Abbreviations

COOP             Continuity of Operations Plan
HSC              Homeland Security Council
IRS              Internal Revenue Service
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




                                      Background

A pandemic is a viral disease that is prevalent throughout an entire country, continent, or the
whole world, or an epidemic over a large area. The 2009-H1N1 virus is a descendant not only of
swine viruses but also of the H1N1 virus that caused the 1918 pandemic, which killed
40-50 million people worldwide. On June 11, 2009, the World Health Organization declared the
H1N1 virus to be a Phase 6 global pandemic—the first in 41 years. On October 1, 2009, the
Secretary of Health and Human Services declared, “that a public health emergency exists
nationwide involving Swine Influenza A (now called 2009–H1N1 flu) that affects or has
significant potential to affect national security.” On October 24, 2009, the President declared
H1N1 to be a national emergency.
The typical flu season in the Northern Hemisphere spans from November to March. It is
predicted that agencies could experience periodic local absenteeism as high as 40 percent. There
are risks if the Internal Revenue Service (IRS) is not adequately prepared for an outbreak of
pandemic influenza, or if it does not fully carry out its related implementation plan. Employees,
contractors, and visitors to IRS facilities may not be protected from infection and the continuity
of critical tax administration operations could be negatively affected.
Federal agencies are expected to follow guidance in the National Strategy for Pandemic
Influenza (Strategy), released by the President on November 1, 2005. Each Federal agency is
responsible for developing plans to implement the Strategy. Building upon the Strategy, the
Homeland Security Council (HSC) released the Implementation Plan of the National Strategy
for Pandemic Influenza (Implementation Plan) in May 2006. The plan included additional
tasks designed to ensure that the Federal Government, along with State and local partners,
continue to prepare for a possible outbreak in the United States.
The Implementation Plan called on the U.S. Office of Personnel Management to provide
guidance to Federal departments and agencies on human resources management and continuity
of operations planning criteria related to pandemic influenza. In addition, the Implementation
Plan required Office of Personnel Management to update its Telework Guide to provide
guidance to Federal departments and agencies regarding workplace options during a pandemic.
Office of Personnel Management’s Planning for Pandemic Influenza: Human Capital
Information for Departments and Agencies (Guide), dated May, 2009, was the initial response
to this directive. The Guide is designed to help Federal departments and agencies achieve two
equally important goals: (1) protecting the Federal workforce, and (2) ensuring continuity of
operations.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of the Chief, Agency-Wide Shared Services during the period September through October 2009.

                                                                                          Page   1
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




We conducted this inspection in accordance with the President’s Council on Integrity and
Efficiency Quality Standards for Inspections. Detailed information on our inspection objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                         Page   2
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




                                 Results of Review

The Internal Revenue Service Has Addressed Most, but Not All of the
Applicable Elements in the Homeland Security Council Guidance
Checklist
In November 2006, the HSC staff requested that department and agency heads certify that
their respective department or agency was addressing the applicable elements of
pandemic planning set forth in a checklist. That checklist provided a mechanism to assist
agencies in developing their pandemic plans and ensured uniform preparedness across the
Federal Government.
Since 2006, preparedness efforts have matured, new challenges have been identified and
addressed, and more Federal guidance has been released. In August 2008, the checklist
was updated following an HSC interagency process to reflect current Federal Government
guidance. Pandemic planning is not a static process; as a result, agencies have been
encouraged to participate in interagency meetings, monitor a central web-based repository
for all Federal guidance, and to revise their own plans and procedures accordingly.
The Department of the Treasury is using the HSC checklist to assess pandemic
preparations by each of the Treasury Bureaus. We used the checklist as our criteria and
will share the results of this inspection with the Department of the Treasury’s Director,
Emergency Programs.
The IRS has addressed the majority of the pandemic checklist issued by the HSC. This
includes prioritizing work and essential operations in the event of a pandemic outbreak,
communicating information to employees on the potential implications of a pandemic,
and taking steps to protect the health and safety of IRS employees.
There were 91 line items in the checklist, in these categories:
       A.      Plans and Procedures
       B.      Essential Functions and Services
       C.      Devolution of Control and Direction / Delegations of Authority
       D.      Orders of Succession
       E.      Primary and Alternate Operating Facilities
       F.      Communications
       G.      Vital Records and Databases
       H.      Human Capital
       I.      Test, Training and Exercise
       K.      Reconstitution
                                                                                            Page   3
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




We determined that 6 of the 91 items were not applicable to the IRS National
Headquarters Continuity of Operations Plan (COOP) plan. (See Appendix IV.) For the
remaining 85 items, we found that as of September 30, 2009, the IRS had completed
71 items and had another 4 items “in process” toward completion. There were 10 of the
85 applicable items not adequately addressed by the IRS:
    A. Plans and Procedures
       As part of its pandemic influenza planning and preparations, is the agency:
       •   Accounting for the needs of employees and stakeholders, including
           individuals with special needs and those with disabilities?[1]
       •   Involving a cross section of individuals, including individuals with special
           needs and those with disabilities, in aspects of emergency preparedness?[2]
       •   Making plans and subsequent communications accessible to and usable by
           all employees and stakeholders, including those with special needs and
           those with disabilities?[3]
       Before a pandemic, has the agency surveyed employees with an
       ADA/Rehabilitation Act-compliant questionnaire or other tool in order to
       estimate employee absenteeism levels or need for telework resources during a
       pandemic, or otherwise developed plans for assessing the need for telework
       resources?[4]
Language that reflects these checklist items is in the IRS’ guidance for adding pandemic plans to
existing continuity plans, but no specifics were found in the COOP plan.
    H.1 General Human Capital
       Has the agency discussed the effect of pandemic related human capital issues
       with its procurement and contract workforce (including contract workers who
       are co-located with or routinely work at the same worksite as Federal
       employees, as well as those who are not co-located with Federal employees)?[5]
The IRS has not indicated that there have been any changes in procurement procedures related to
a potential pandemic.
    H.5 Telework and Information Technology Capabilities
       Has the agency telework coordinator been provided with training and resources
       necessary to ensure effectiveness and included the telework coordinator in
       emergency planning?[6]



                                                                                          Page   4
                    Inspection of the Internal Revenue Service’s Pandemic Influenza
                                            Preparedness Plan




The IRS’ telework coordinator is not represented on the Emergency Preparedness Executive
Steering Committee or the Pandemic Influenza Working Group. Representatives from the
Human Capital Office however, are represented on these panels.
        H.6 Safety and Health for Employees and their Families
           Based on public health guidance, such as issued by CDC, has the agency
           established policies for restricting work-related travel to geographic areas
           affected by a pandemic health crisis and monitoring employees returning from
           affected areas?[7]
According to the IRS’ pandemic Frequently Asked Questions, there have been no decisions to
restrict IRS employees from traveling. Employees are instructed to contact their manager or visit
the Physical Security and Preparedness Web site for the latest IRS travel information.
        I. Test, Training and Exercise
           Has the agency conducted pandemic influenza-related exercises (involving
           essential personnel, managers, senior leadership, and contract support) to
           examine the impact of a pandemic on agency’s ability to carry out essential
           functions?[8]
           Has the agency developed processes to evaluate program plans, procedures, and
           capabilities through periodic reviews, testing, post-incident reports, lessons
           learned, performance evaluations, and exercises?[9]
           Has the agency developed processes to ensure that corrective action is taken on
           any deficiency identified in the evaluation process and to revise at a minimum
           the relevant policy(ies), guidance, personnel, procedures, training, equipage,
           facilities, as well as plan(s)?[10]
The IRS informed the Treasury Inspector General for Tax Administration that there have been
tabletop exercises over the past several years in preparation for a pandemic influenza emergency.
Most recently, the IRS participated in “Eagle Horizon 2009.” Eagle Horizons was an exercise
which used a scenario of a terrorism-based biological attack on the National Capital Region. In
this exercise, a decision was made to close two IRS campuses. 1
In May 2009, three campuses (Ogden, Andover and Memphis) conducted exercises involving a
pandemic scenario. Although generally reported as successful exercises, issues were identified
with teleworking and the potential transshipping of documents.




1
    The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
    forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page      5
                Inspection of the Internal Revenue Service’s Pandemic Influenza
                                        Preparedness Plan




The Internal Revenue Service has actively communicated information to
employees on the potential implications of a pandemic outbreak
The IRS first responded to the potential of a pandemic outbreak in 2006. An internal
Web site was established, and information was published and distributed to employees.
With the advent of the 2009-H1N1 threat, the IRS began a series of employee emails and
notices, as well as establishing a Frequently Asked Questions page on the Web site. The
pandemic Web site is extensive and continues to be updated as needed.
Examples of the information on the Pandemic Web site:
       •       Links to Flu.gov, Centers for Disease Control, Office of Personnel
               Management, Health and Human Services and World Health Organization
               pandemic guidance;
       •       IRS Protocol for Reporting Infectious Disease Process;
       •       IRS Document 12427: “Preparing for Pandemic Influenza”;
       •       The National Strategy for Pandemic Influenza;
       •       Information on vaccines and vaccinations; and,
       •       Frequently Asked Questions (questions submitted by IRS employees).
In addition to the general information published for all employees, the IRS’ Human
Capital Office published guidance for IRS managers on October 1, 2009. This document
was designed to reflect direction provided by the Office of Personnel Management and
Department of the Treasury as well as IRS policy. Relevant links to reference sources
were provided along with fact sheets on pertinent human capital issues. Points of contact
were included on each fact sheet. The document is intended to serve as a reference tool
that should answer most questions and provide instructions on where to find more
in-depth information. Managers were encouraged to maintain a copy of this document for
reference.

The Internal Revenue Service has taken steps to prioritize work and essential
operations in the event of a pandemic outbreak
The IRS has established a Pandemic Influenza Working Group, representing major management
functions of the IRS that would be involved with a pandemic outbreak. In addition to the
Pandemic Influenza Working Group, the pandemic has been addressed by the Emergency
Management Executive Steering Committee.
Emergency procedures for a pandemic outbreak have been incorporated into the IRS’ COOP, in
an appendix entitled, “Pandemic Influenza COOP.” The COOP plan outlines the priority of
work and mission essential functions, the continuity of leadership, notification procedures, vital
records, and other recovery procedures. Mission essential functions are those functions that enable
IRS to provide vital services, exercise civil authority, maintain the safety of the public, and sustain
the industrial and economic base during an emergency.

                                                                                               Page   6
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




The priority of work is outlined in the IRS’ “critical business processes” and includes:
       •       Processing remittances;
       •       Processing tax returns;
       •       Processing refunds;
       •       Responding to inquiries;
       •       Detecting and stopping fraudulent returns;
       •       Issuing tax payer notices; and,
       •       Developing and delivering taxpayer forms and publications.
In addition, a template has been published for IRS functions to incorporate similar information in
local COOP plans across the IRS. There are in excess of 2,500 of these plans, as each function
in each office has their own plans.

Seasonal and pandemic vaccinations will be provided for employees
Each year, the IRS provides free influenza vaccinations to interested employees for the recurring
“seasonal” flu. The vaccinations are administered under the guidance of Federal Occupational
Health using the criteria developed by the Centers for Disease Control and Prevention. This
year, seasonal flu shots began on October 1, 2009.
A vaccine for the 2009-H1N1 will also be available and provided to employees. However, the
H1N1 vaccine will be distributed to all interested employees over the course of several months,
since the initial quantities of the vaccine will be limited. Vaccinators were instructed by the
Center for Disease Control to target the subgroups for whom the risk of complications is greatest.
Thereafter, vaccine would be produced on a continual basis and be available to anyone who wants
and needs it.
The unavoidable delays in administering the vaccine cannot be controlled by the IRS, but may place
individual employees at risk of contracting the virus before the vaccine is available. Employees
have been advised that they may also get the H1N1 vaccine through local sources including
doctors, public health units, etc.

Recommendation
Recommendation 1: The Chief, Agency-Wide Shared Services should take immediate steps
to finalize the items “in process” and address the items in the HSC checklist not yet completed.
       Management’s Response: IRS management agreed with the recommendations. The
       Director, Physical Security and Emergency Preparedness, Agency-Wide Shared Services
       has taken action to complete the Homeland Security Council checklist items that were in
       progress and not completed at the time we issued our draft report. The actions taken are
       reflected in detail in Management’s complete response to the draft report, included as
       Appendix V.

                                                                                           Page      7
                     Inspection of the Internal Revenue Service’s Pandemic Influenza
                                             Preparedness Plan




Other Implications of a Potential Pandemic Need to be Reviewed at
Field Offices
Although the IRS has addressed the pandemic checklist, communicated information to
employees, and taken steps to protect the health and safety of IRS employees, there were
additional aspects of a potential outbreak that the Treasury Inspector General for Tax
Administration determined required additional review. This includes the IRS’ ability to fully use
telework in the context of a pandemic; contingencies if a field office 2 or campus has to
completely close down due to expected high absenteeism; and, the tests, training and exercises
related to local COOP and business continuity plans. We conducted additional field work and
will issue a separate report with our assessment of these three areas.

Teleworking
The Implementation Plan references the benefits of using telework to slow the spread of disease
by keeping face-to-face contact to a minimum (often referred to as “social distancing”) while
maintaining operations as close to normal as possible. Telework can also help agencies retain
functionality as infrastructure issues and other challenges make the main worksite difficult to
access.
The Office of Personnel Management suggests that the key to successful use of telework in the
event of a pandemic health crisis is an effective routine telework program. As of
September 15, 2009, the IRS reported that it had 95,625 employees. Of this population,
23,281 (24 percent) are approved teleworkers, that is, they have all of the hardware, software,
and training that they need as well as a valid telework agreement approved by their manager.
This leaves three-fourths of the IRS workforce that does not presently have the capability to
telecommute.

Contingencies if a field office or campus has to shut down
The IRS has considered the “worst case scenario” of completely closing an office or campus.
According to the Federal Emergency Management Agency, the IRS can expect up to 40 percent
of the staff may be absent for periods of 2 weeks at the peak of a pandemic wave with lower
levels of staff absent for a few weeks on either side of the peak. The absenteeism can be the
result of illness, the need to care for sick family members, or simply fear of contracting the flu.
As the typical flu season runs from November to March, this has the potential to impact the
2010 filing season, when the largest numbers of returns being processed also usually occurs in
March. The IRS has existing procedures and experience in shipping returns from one processing



2
    A field office is any office of the IRS not located at a campus or the National Headquarters.
                                                                                                    Page   8
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




campus to another. However, these procedures have not been employed or tested for the larger
volumes that would result if a campus was shut down completely.

Tests, Training, and Exercises
As discussed above, the IRS has participated in exercises over the past several years in
preparation for a pandemic influenza emergency. The IRS identified issues related to
transshipment of returns and teleworking which the Treasury Inspector General for Tax
Administration will review in more detail.




                                                                                           Page   9
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

Our objective was to determine if the IRS had met the various requirements directed to Federal
agencies in preparing for a potential outbreak of a pandemic influenza like the H1N1 virus. To
accomplish this objective we:
I.     Interviewed key responsible individuals:
       A. Physical Security and Emergency Preparedness.
       B. Human Capital Office.
       C. Modernization and Information Technology Services.
II.    Reviewed the IRS’s COOP, primarily as they relate to a pandemic influenza outbreak:
       A. Reviewed the IRS National Headquarters COOP.
       B. Reviewed the template for pandemic appendixes to local IRS COOP plans.
       C. Reviewed other IRS Business Continuity Plans as applicable on an ad hoc basis.
III.   Used the Homeland Security Council’s Key Elements of Department Influenza Plans:
       (checklist) as a template to assess the IRS’s planning efforts.
       For each line item in the checklist we:
       A. Determined the responsible IRS function.
       B. Matched the line item to the corresponding element in either the COOP, or other
          relevant documentation.
       C. Obtained and reviewed supporting documentation.
       D. Followed up with interviews of responsible individuals.




                                                                                        Page 10
             Inspection of the Internal Revenue Service’s Pandemic Influenza
                                     Preparedness Plan




                                                                Appendix II

               Major Contributors to This Report

Kevin P. Riley, Director
Mark Anderson, Program Analyst
David Brown, Program Analyst




                                                                      Page 11
              Inspection of the Internal Revenue Service’s Pandemic Influenza
                                      Preparedness Plan




                                                                   Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief, Human Capital Officer OS:HC
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Director, Workforce Progression and Management OS:HC:WRT
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief, Human Capital Officer OS:HC




                                                                         Page 12
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




                                                                                 Appendix IV

  Checklist Items Determined to be “Not Applicable”

       A.5b: Has the agency, working through the Federal Executive Board, the DHS
       National Operations Center, other Federal agencies, and the communities in
       which the agency is located, aligned its plan and implementation of the plan
       (e.g., altering operations, flexible work schedules, sick leave, social distancing,
       telework, shutting down operations in affected areas, etc.) with The Community
       Strategy for Pandemic Influenza Mitigation? [1]
We are not able to assess this element since it would depend on conditions at each local office.


       A.6: Has the agency (through the Federal Executive Board and/or other
       Federal agencies, where applicable) ensured that its plans accommodate local
       response plans by:
       •       Accounting for likely employee absenteeism for those who must mind
               school age children due to potential school closures? [2]
       •       Accounting for likely employee absenteeism for those who must stay
               home due to their own illness, illness of a household member, and/or to
               provide care for other ill individuals? [3]
We are not able to assess these elements since it would depend on local response plans.
However, the IRS has considered these scenarios in overall planning and they are addressed in
the Human Capital Office managers’ document.


       B.4c: Has the agency planned to sustain essential services and functions during
       a pandemic influenza outbreak, under the following scenarios: Broad-based
       implementation of community mitigation measures as outlined in the
       Community Strategy for Pandemic Influenza Mitigation? [4]
We are not able to assess this element since it would depend on local incident management
plans. However, the IRS has considered this scenario in overall planning.


       B.7: As appropriate, has the agency initiated pre-solicited, signed, and standing
       agreements with contractors and other third parties to ensure fulfillment of mission
       essential requirements, including contingencies for backup should primary suppliers
                                                                                          Page 13
               Inspection of the Internal Revenue Service’s Pandemic Influenza
                                       Preparedness Plan




       or contractors be unable to provide required personnel, services, or supplies? [5]
The IRS’ Emergency Management had no input as they did not know of any “appropriate”
situations where this would apply.


       H.4c: For hiring needs requiring OPM approval, have agency officials
       developed documentation and/or compiled information that can be used to
       immediately request approval in the event of a pandemic health crisis? [6]
The IRS has no additional needs for hiring approvals.




                                                                                        Page 14
   Inspection of the Internal Revenue Service’s Pandemic Influenza
                           Preparedness Plan




                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 15
Inspection of the Internal Revenue Service’s Pandemic Influenza
                        Preparedness Plan




                                                         Page 16
Inspection of the Internal Revenue Service’s Pandemic Influenza
                        Preparedness Plan




                                                         Page 17
Inspection of the Internal Revenue Service’s Pandemic Influenza
                        Preparedness Plan




                                                         Page 18
Inspection of the Internal Revenue Service’s Pandemic Influenza
                        Preparedness Plan




                                                         Page 19
